<»'

44

APPENDIX A

99

Case: 2:19-cv-14461-KMM
v

Document #: 14 Entered on FLSD Docket: 04/10/2020

Page 1 of 6

----- V,?

UNITED TATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
•

' ;t-

Case No. 2:19-cv-14461-KMM
1

:v-

■

- t

JOEL BARCELONA,
Plaintiff,

i

v.

M. ESCOTTO RODRIGUEZ, et al.,
■

«

Defendants.
V

ORDER ON REPORT AND RECOMMENDATION
THIS CAUSE came before the Court upon Plaintiff Joel Barcelona’s (“Plaintiff’)
Amended Complaint pursuant to 42 SJ.S.C. § 1983. (“Am. Compl.”) (ECF No. 9). The Court
referred the matter to the Honorable I sette M. Reid, United States Magistrate Judge, who issued
a Report and Recommendation recoi -mending that the Amended Complaint be DISMISSED.
(“R&R”) (ECF No. 10). Plaintiff file'. Objections. (“Objs.”) (ECF No. 13). The matter is now
ripe for review. As set forth below, tf , Court ADOPTS the R&R. i
The Court may accept, reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate judge. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(3).
The Court “must determine de novo tay part of the magistrate judge’s disposition that has been
properly objected to.” Fed. R. Civ. P. 72(b)(3). A de novo review is therefore required if a party
files “a proper, specific objection” to

i

factual finding contained in the report. Macort v. Prem,

The Court adopts the R&R with th1. following alterations: on page three, line six, the quoted
material should state, “to state a dairy to relief that is plausible on its face.”; on page five, lines
fourteen to fifteen, the citation shoul read, in part, “614 F.3d 1288, 1304”; and on page eight,
lines nine to ten, the citation should re .td, “Danley v. Allen, 540 F.3d 1298,1310 (11th Cir. 2008),
overruled in pari on other grounds i > Randall v. Scott, 610 F.3d 701 (11th Cir. 2010) (citing
Goebert v. 'Lee Cty., 510 F.3d 1312,1 .,26 (11th Cir. 2007))”.

Case: 2:19-cv-14461-KMM

Document #: 14 Entered or5FLSD Docket: 04/10/2020

Page 2 of 6

? ;

. i
V.
I

Inc., 208 F. App’x 781, 784 (11th Cir. 2006). “It is crMeal that the objection be sufficiently
; , ‘ 1 VV

specific and not a general objection to the report” to warra nt de novo review. Id.
Plaintiff is incarcerated at Northwest Florida Rec ption Center. Am. Compl. at 9. On
c,

' -

■

December 12, 2019, Plaintiff filed the Amended Complaint. See generally id. Therein, Plaintiff
alleges claims against three employees at Martin Correcdonal Institution, his former place of
incarceration. See id. at 3. Specifically, Plaintiff alleges tt.3 following: On September 16, 2019 at
"'.f

9:00pm, Plaintiff and other inmates at Martin Correctional Institution were ordered by Defendant
M. Escotto Rodriguez (“Rodriguez”) to return to their cell : before they were finished eating their
meals. (“Am. Compl. Decl”) (ECF No. 9-1) at 1. In response,, the inmates refused to return to
their cells until they were finished eating. Id. Thereafter R jdriguez came to Plaintiff s cell, where
to Plaintiff had since returned, and ordered Plaintiff s cel mate to return to his cell, but his cell
'

■-

^

mate refused. Id. Rodriguez again ordered his cell mate, to return to his cell and his cell mate
i-'

complied. Id. at 2. Nonetheless, Rodriguez “sprayed a deadly gas” on his cell mate, which “hit
the wall toward [Plaintiffs] bed and hit [Plaintiffs] face,” resulting in Plaintiff suffering shortness
ii 'i ■

of breath, eye pain, and other ailments. Id.
Plaintiff also alleges that after the incident, he yelled for a “medical emergency” but was
ignored by Defendant Officer Jean-Pierre (“Jean-Pierre ’), and that subsequently Defendant
w

Captain Martin (“Martin”) was made aware of the incident. Id. at 2-3. Accordingly, Plaintiff
G

claims that Defendants violated his Eighth Amendment rights. Id.
On November 26, 2019, Plaintiff filed a Motion fc '“Leave to Proceed In Forma Pauperis,
w
.■■y

(ECF No. 4), which the Court granted, (ECF No. 6). ^ecause Plaintiff is incarcerated and
proceeding in forma pauperis, his Amended Complaint : s subject to screening pursuant to 28
U.S.C. §§ 1915(e)(2)(B) and 1915A. R&R at 1.

1

■
t : •

&
■3

2
v
'. *!

r

Case: 2:19-cv-14461-KMM

Document #: 14 Entered on FL$D Docket: 04/10/2020

Page 3 of 6

c
V.
As set forth in the R&R, Magistrate Judge Reid finds that Plaintiffs Amended Complaint
fails to state a claim. See generally

first, Magistrate Judge Reid finds that Plaintiff’s claim

against Rodriguez for excessive force^fails to state a claim because (1) Plaintiff does not allege
facts supporting his conclusory statements that Rodriguez’s actions were an “excessive use of
deadly force” or that the spray was deadly; and (2) he fails to make the required showing of a
“sufficiently culpable state of mind” : tecessary to meet the heightened standards of an excessive
force claim. Id. at 6. Second, Magistiiie Judge Reid finds that Plaintiffs claim for excessive force
against Martin fails because Martin was not involved in the incident and was only informed of the
incident after the fact. Id. at 7. FurtheMagistrate Judge Reid finds that Plaintiff’s claim against
Martin for supervisory liability fails because Plaintiff does not allege facts showing a causal
s.

connection between Martin and the incident. Id. Third, Magistrate Judge Reid finds that Plaintiffs
claim for excessive force against Jean-Pierre fails because he was not involved in the deployment
of the spray. Id. at 8. Further, Magistrate Judge Reid finds that Plaintiffs claim for deliberate
r
indifference against Jean-Pierre also Mis because Plaintiff does not articulate any theory or facts
demonstrating causation between Jeaib Pierre’s action and an injury to Plaintiff. Id. Accordingly,
Magistrate Judge Reid recommends th; t. the Court dismiss the Amended Complaint. Id. at 9. This
Court agrees.
Plaintiff’s Objections consist c new arguments based on additional facts not alleged in the
.

'i

■

Amended Complaint, general objectic as to the R&R, and rehashing of arguments that Magistrate
Judge Reid already addressed, which <?re improper objections not warranting de novo review. See
Williams v. McNeil, 557 F.3d 1287, 292 (11th Cir. 2009) (“[A] district court has discretion to
decline to consider a party’s argument vhen that argument was not first presented to the magistrate
judge.”); Macort, 208 F. App’x at 78-, Marlite, Inc. v. Eckenrod, No. 10-23641-CIV, 2012 WL
A

3
a

Case: 2:19-cv-14461-KMM

Document#: 14 Entered or FLSD Docket: 04/10/2020

Page 4 of 6

-1

3614212, at *2 (S.D. Fla. Aug. 21, 2012) (finding that e jections that are nothing more than a
rehashing of arguments presented in the original papers ai ; improper). Therefore, the Court need
.

t .. ..

not conduct a de novo review of the R&R.
Nonetheless, even if the Court were to consider tae new arguments based on additional
rfacts that Plaintiff asserts in the Objections, Plaintiff’s a|egations fails to state a claim. First,
Plaintiff states in the Objections that his cell mate did not re ;ist and that after Plaintiff was sprayed,
Plaintiff was left in a small, poorly ventilated cell for mor,=. than an hour without being allowed to
decontaminate. See Objs. at 8. A claim of excessive fore* under the Eighth Amendment’s cruel
and unusual punishment clause “requires a two-prong showing: an objective showing of a
deprivation or injury that is ‘sufficiently serious’ to consfkute a denial of the ‘minimal civilized
measure of life’s necessities’ and a subjective showing that die official had a ‘sufficiently culpable
state of mind.’” Thomas v. Bryant, 614 F.3d 1288, 130*, (11th Cir. 2010) (quoting Farmer v.
Brennan, 511 U.S. 825, 834 (1994)).

“Excessive-force claims . . . require a showing of a

heightened mental state-that the defendants applied fore* ‘maliciously and sadistically for the
very purpose of causing harm.’” Id. (citing Wilson v. SeiUr, 501 U.S. 294, 302 (1991)) (internal
citations omitted). Even if the Plaintiff’s allegations could state a claim as to the objective prong,
Plaintiff fails to allege that any Defendant had a sufficiently culpable state of mind because
Plaintiff alleges Defendants did not know that Plaintiff wd; calling for help due to being sprayed.
See Objs. at 4. Therefore, Plaintiff’s claim of excessive for'e fails to state a claim even considering
the additional facts.
Second, Plaintiff alleges that Defendants deprived the inmates, including Plaintiff, of

U

“basic human needs, such as food,” in violation of the Eigtjth Amendment. Objs. at 1. To state a
claim for an Eighth Amendment violation, a plaintiff m it satisfy an objective and subjective
•:jd
•j

4
t

Case: 2:19-cv-14461-KMM

4
Document 4:14 Entered on FLSD Docket: 04/10/2020

Page 5 of 6

■»

HI

component. See Chandlery. Crosby. 379 F.3d 1278, 1288-1290 (11th Cir. 2004). First, under
L
the “objective component,” a prisoner lust prove that the condition he complains of is sufficiently
. .'.V

serious to violate the Eighth Amendment. Id. at 1289 (citing Hudson v. McMillian, 503 U.S. 1, 8
1

(1992)). The challenged condition mufe be “extreme.” Id. (citing Hudson, 503 U.S. at 9). Second,
the prisoner must show that the defenc mt prison officials “acted with a sufficiently culpable state
of mind” with regard to the conditior at issue. Id. (citing Hudson, 503 U.S. at 8). The proper
standard is deliberate indifference. V-' Ison, 501 U.S. at 303. Although Plaintiff alleges that the
Defendants deprived him and other th inmates of finishing a meal on the evening of the incident,
deprivation of one meal does not ri

to level of a constitutional violation. See Johnson v.

Merriman, No. l:13-cv-00087-MP- RJ, 2015 WL 1409529, at *4 (N.D. Fla. Mar. 26, 2015)
(citing cases) (“The failure to serve [a few meals is not sufficiently severe to rise to the level of a
_n
constitutional violation.”). Further, Maintiff does not allege that Defendants had the requisite
“sufficiently capable state of mind

as to any deprivation.

Therefore, Plaintiff’s Eighth

Amendment claim for depriving Plain iff of food or other basic human needs fails to state a claim.
. -k
Third, Plaintiff alleges that Defendants were deliberately indifferent to Plaintiffs serious
medical needs because they did not re pond to his calls for help after he was sprayed. Objs. at 4.
To plead deliberate indifference “a plaintiff must show: (1) a serious medical need; (2) the
defendants’ deliberate indifference tc hat need; and (3) causation between that indifference and
S;

the plaintiffs injury.” Danley v. Alle , 540 F.3d 1298, 1310 (11th Cir. 2008), overruled in part
■ r

on other grounds by Randall v. Scott, 510 F.3d 701 (11th Cir. 2010) (citing Goebert v. Lee Cty.,
'

510 F.3d 1312, 1326 (11th Cir. 2(17)).

Deliberate indifference has three components: (1)

subjective knowledge of a risk of ser: >us harm; (2) disregard of that risk; (3) by conduct that is
more than mere negligence. McEllig?t v. Foley, 182 F.3d 1248, 1255 (11th Cir. 1999). Here,
ai
.

■i.

■s.

5

Case: 2:19-cv-14461-KMM

Document #: 14 Entered or FLSD Docket: 04/10/2020
;0

Page 6 of 6

a
Plaintiff alleges that Defendants did not know that Plaint. . If was calling for help because he had
v
been sprayed. Objs. at 4. Therefore, accepting Plaintiffs ..legations as true, Defendants were not
deliberately indifferent and Plaintiff s claim against Defer . ants for deliberate indifference fails to
state a claim even considering the additional facts in the O bjections.
Because the Court previously granted Plaintiff le we to file an amended complaint, see
(ECF No. 7), and Plaintiffs allegations fail to state a iaim even if the Court considers the
additional facts Plaintiff sets forth in his Objections,. urther amendment of the Amended
Complaint is futile. Therefore, dismissal of this case wi... prejudice is appropriate. See Hall v.
7

United Ins. Co. of Am., 367 F.3d 1255, 1263 (11th Cir. 2C.\-4) (citation omitted) (“The law in this
Circuit is clear that ‘a district court may properly deny ler /e to amend the complaint under Rule
15(a) when such amendment would be futile.’”).
UPON CONSIDERATION of the Motion, the per. nent portions of the record, and being
otherwise fully advised in the premises, it is hereby ORDERED AND ADJUDGED that
Magistrate Judge Reid’s R&R (ECF No. 10) is ADOPTEE and Plaintiff’s Complaint (ECF No. 9)
is DISMISSED WITH PREJUDICE. The Clerk of the C ourt is instructed to CLOSE this case.
All pending motions, if any, are DENIED AS MOOT.
DONE AND ORDERED in Chambers at Miami, I orida, this 10th day of April, 2020.

K. MICK aEL MOORE
UNITEE^STATES CHIEF DISTRICT JUDGE
F
i

c: All counsel of record

6

V

RECEIVED
NWFRC

UNITED STATES DISTRICT COURT

INMATE initials

FOR THE -Sd-UTHE-K-M DISTRICT OF FLORIDA

<TDEL MR-fflAMX
Plaintiff/Appellee,

V.

CASE NO:

IT1 .£■ P6DIZI6IIF7

I44/„I KlUff

• I

Defendant/Appellant.

NOTICE OF APPEAL
NOTICE IS HEREBY GIVEN, that

KI2JH+! FF

A

, the
in the above name
nejKase, hereby appeal to the United States Court

of Appeals for the Eleventh Circuit CO from the final judgment (_J from an order (describe
PI5IDI65E.P TflF CL&SE
order)
entered in this action on the icT^ day of AP/U I
20
.
CERTIFICATE OF SERVICE
I CERTIFY that a true and correct copy of the foregoing Notice of Appeal has
been placed into the hands of institutional staff at Northwest Florida Reception Center
for-delivery by U.S. mail to: The ilnrh^J Sialm Disitudf CoouLi FOfE
THE 5oUTHEJLD DlS~hzJdT 6F
. Df=FldEi 4FT-HK YL/zn k _

llm.

4daKj, ftltfmi Avfem/E , flllAmi, FlnmA)* 2)b

AH

j

tk. r

. :

this / — day of

*-r-;

/77<3y

20 2d .
/s/
hj=j

=Ml1tzM2LSA2?3l

(Tssi x

pro se

3Northl?est Florida Reception Center
lati,. 4455 Sam Mitchell Drive
w
'
Chiplev, Florida. 32428
is___ _

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal 1 .uscourts.gov

August 28, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-11760-GG
Case Style: Joel Barcelona v. M. Rodriguez, et al
District Court Docket No: 2:19-cv-14461-KMM
Eleventh Circuit Rule 31-1 requires that APPELLANT'S BRIEF BE SERVED AND FILED
ON OR BEFORE October 7. 2020. INCARCERATED PRO SE PARTIES ARE NOT
REQUIRED TO FILE AN APPENDIX.
This is the only notice you will receive concerning the due date for filing the brief. See Fed. R.
App. P. 28, 31, 32 and the corresponding circuit rules for further information.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Joseph Caruso, GG
Phone #: (404) 335-6177
BR-1CIV Civil appeal briefing ntc issued

r

c j.

I

!

/

i

i

t

UNITED STATES DISTRICT COURT f
SOUTHERN DISTRICT OF FLORIDA !NI fi/'v L* v ^
------>_____

t

J

Civil Case Number:

EatuLElaha J'Jana.THan HolmES
(Write the full name of the plaintiff)
#7 . ESHdttb . IZjdfLl Aii^y

Cmpt. tfta/iTm
ardL.x/figfl- PtEKtlR

(Write the full name of the defendant/s in this case)
COMPLAINT UNDER THE CIVIL RIGHTS ACT, 42 U.S.C. § 1983
I. Party Information
A. Plaintiff:

&anjLE/&nj I^JmsTNan HaIities

Address: hJVs!FFF._
Inmate/Prison No.:

£stT\

PlZJ^E ,

, Fid. 32*f2tf

/7l5a33i /6-&&i3/a

Year of Birth: 135*1

(Do not include day or month, pursuant to Fed. R. Civ. P 5.2)

(Write your name, address and prison/inmate number, if applicable)
vs.
B. Defendant: /??. Fstejfh. /Wfc/£l7£2Defendant: CdFT. UlSflTm
Official Position:

(OfFl CJEJK

Official Position: CjlP ~TS M_______

Place of Employment:Place of Employment: ITIdfZJ'lfl (L. I.
(Write the full name of each defendant, official position and place of employment Attach a
separate page if you need additional space for additional defendants.)
C>FFUL£JL <1.mu, PtETUlE . &FIK. C)FFId£lL _ IflsIZ.TII1 d.l.

I.

~

J-

/

n. Statement of Claim
Briefly describe the facts of your case. Describe how each defendant is involved, names of other
persons involved, and dates and pi aces. Each claim should be stated in a separately num bered
paragraph. Please use short and plain statements, with separately numbered paragraphs indicating
why the relief requested should be granted. Do not idude legal arguments or cite cases or statutes.
Attach additional pages, if necessary.
.
.
.

PlamTiFF was Je&kiveJ 6Fa N&htsecukeJ lmcIeil the
Z7..S. CohST. dtL 1~EeIeJZ3.I Lt3.vJ iandEJlCJ-j dEPtlls/ atlOh d/1/1 nrfn.Fz/
uhJetl

Colon.

of

Stah. Layj an. Local lav,/
SjaTEJDEflT OF fa£TS

tin $EPTEm&m n.
iNednEsJa-l IHanrm LI . was
an Look. Qpw/7 daeta FamtC4) m malts Gor s^LLeJ.
On ^Enrtm/bEn. n,

mm

, tTlghda-iar7:aa am.

am. sNadma ton. Dm hep. arTnEd/nECj-ian

of

whiIe WE

Lahz tPajirm

ih-£Han6E, Dfc. HI. Fscotlh.PjodiLi &UE2 damn m ar^uad E3.
see aftaca additional Pa&ESIII. Relief Requested
Briefly state what you are requesting from the Court (what do you want the Court to do). Do not
include legal arguments or cite cases or statutes. Attach additional pages, if necessaiy.

PlamTiFF is s&ktnd ca m pEnsa to mi damaGEs as a
hahiliiy qf~thr namnd dEFEhdanTs atETEd umJetl
C^latL <DF Sl3TE IMsN . A 'Vialaitafn OFTHE PldthTIFFS
oon^TiTUTfahal flights ts a se/zjcoils fFh>uit2S. jScA^vwvg
use ardEadh f&iz£E m vnotation <ofthe Eg,h~t LmEhdttTIEhTE> PfoOHI&ITIQFI d&3ms~rCtZilEjahdunnsud/
m the dm®un~r&fH2&o,aa<o.a<oanda
Pumt/ve. damaoiEs g,v ihTEnTiahall-i HururwG us
ioilfushmefit

Jt.

}
X

/

III- Ca/TtW /ZeIiBF IZe&URSTEjcI .
Ey^aJuJincB oun. Pdm <3nd snFFBfUhd , Rmcm&rte-I
diSTIZESS dnd fTlEFl T<3 I dnGlUSH FCn. THE TGTdl

&moiAn~r (df !$ fxDG

666.60 >

& <?

J •
/

and anhamdFr! its oourmimE. All ininahs ilepIieJ,

W£

aizr noT Soin&.in uniess we mr. He aamE m rnonroF ban.
drll arHoorn 3102 whole WEanEassi&nEd. I wasaJnad'i
ihsiJe bun. ceJI. fth ce/I.maA dJonafhan Holmes. D2Td.0o/5i2
was afhnth in Tnonror oun oeII. /Tin cLEll.mak eefuseto
&b ihside que oeJI cEeausE wht Dm. Hi. Buffo. Aidtu Suez
aallzj u>utiT TH3T we h3Ve Hot oteti quiz. iDinnEn. 3tthe
dlizEETion bp daPr, YHarcrm. Ore. ft. Buffo. AoJilksuet
said /1 will (Sou nr one, nw deJLmakdona than Holmes;
stood, ur 3rd skp.msdE cue CeJI. Dm. M. Buffo .tiedruc^ET
sPna-ied a deadA &as to ms adimaiE on the Fads inside
Aun_ djzll <3ftejl im 0-tlLm^iE oIdEHeA HIS Otidt
£12- TO G,0
IHSiJe OWL cleJ!.

Q_F!l. /n. Btetf-O. floAlLlGilEZ. "eXs’f<,k/s/jt U5e
FOiznE Vlolahs THE El6,HT AfTEhAniEFITSf PnOhilBlTItih
a^amsr (UzueI BnA UhilELL3/ PuniSH/WEdiT WHE/2.E non
drlLfriaiE (ob^iEj his ohAetl and a/itEadd ms id

E on/z.

* OfaL. tY)> EsdjpHo_ P\odt2lGlLF7
--------i
vW^es
B&HTAtnEndmEtiTTonfE U.S> &>hst,tut,oh.

THE

Dm. m. Bdofo. ftodtuauEL s "excessive use or dadA
f j 5AT',"?W'e *“*■ WI.hitthe wall TOWand ms
bed and hit run Fata. 7Je n^ud of the 'deadA aas
SPUBH, J. SUFFEITeA 3

SHOW/7£55 (DF &ttE3TH ehe Pam,

S.

/

Kiwrrt hose fail ZEs/Ehal dans , bemuse Ive BEET)
Latflmoi Eton, a severe atdommal and edomacH team,
F3TI6UE , WEdh ,£PEll bE dl Tim ESS , loss <df dalantE
TH37 I hEardn Pass.out iBEdausE 1 dan mat bizetth .
1 W5b s<nz£3mma Eon!1 mE^ioal ETnEfijhimd>f '* &LLT
1 was ia,ha/zE<d 64 Opd.'df^n. ftiEiuiEs
He dnusush of dan. !Vara~m and 6fe. tf). Esdrdfo_
/^nj&uEz to He<le tnmaiE Holmes m a Hand. duFFaThd
~r&kEh i~othe tehEmmiEEiT was undusTtE/Ed and nn_
lawFul. Inmate Holmes nad s rand i_davs m a couf/he.
/nsrr surma no, Fort HEadadME, vsm,ifina, vtatenn eves
and tuimv nose os artEsud or "excess, ve use ordsadh
FotuLE BY US,ns, a deadh £as SPhav.
„
Af TEtL THE incud&rr, Carr, tllarcrin Had /cev/ew the
dideo CatnEtza . Of<±. Hi. Esdotta. fcodtuGuEZs Oman
£Xces.s>,ve use of deadN Forma in violation of the
Ej&ht AmEndman r to the Ll.S. Cohstitut/m .
FuhiTHEfL , mm airs dsal BanmaLna and donaimn
HolniES Had moulded SUFFIEJEMT EU ideU<LE TO SHOW
THclT Bee. m. Esoulto. f2odrvs,uaz violated the m mates
Baht AmandmanTjughts &v"axnass,va use ordedte
eohoe bh asm a, a deadd $<3s sPhM'i to the mmahs
3f teiu the m mates abanad an onJam and the mmates

4.

>'• -J '

a/n.FaJ-r msiJr ee/I , The tLonJuar of Dec. 1U. Es.
£jstfb. RoJiziGuia. F3.tia.ll-i iiolatidthe Ei&ht AitiejiJ.
tnEn~rand iidLahJ3 (Je3/Jh EsraLhsHEd Law.
The PlaimiFFs was JsotuiaJ of a Fught SEUitudl
uhJer. -the US. dowsr. at EsJEtia / Z2w ; 3nJ
SUSH
.

hi. EstoHo. HcJruGuRz _ Emrt&iEd bi E b. (L. is a
Cotin.. U)mtEfi_ a_T /TIarcrin d.I. ht «/s individual
Q3P3<LjT~i am td sindutz. ddon. tt)F HfjIt te v\/f
(teflr. Htetcrm-BfipItMEcI &i ED. CL. as terrain
err tfh.nsnh d.I. Iff HIS /fldls/ldiitELlclnel Opfldldil

tamuTH acord undm. (botch. of SJjfe lgW
3- CLFFicEtzyJmn- Mfcc*
ov
Cotut.. Omo£ti.ar tba/zrin tel.
/
,
m HB7~ indtHicL&l
On OtrcBEii 10, Am. J was mans fehjzrJ to
NonTHWEST EloizjJa kEtETT/cn CRHTEJT 7Z> totlEiEHT
Fticm Films a hoh.FtiiVo/cus Gcmplam-r.

s.

!

&F3n nh^lusTif=iEc/ andiih

d&inclucsr H'i £X££S_
S/Vf £D£ OF dE&Jh mtlOB !N THE Sm^UHT <9F jS^/VV/yy>. rip
SEE Eycrtl^ &3&E.

IV. Jury Demand
Are you demanding a jury trial?

Yes

No

Signed this

ail—

day of

tf
Signature of Plaintiff

I declare under penalty of peijury that the foregoing is truce and correct.
Executed on:

NdVEmbEtL dLLAGhM
Signature of Plaintiff

6a-

APPENDIX - B

Case: 20-11760

Date Filed: 08/28/2020

Page: 1 of 7

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11760-G
JOEL BARCELONA,
Plaintiff-Appellant,
versus
M. ESCOTTO RODRIGUEZ,
Correction Officer,
CAPT. MARTIN,
OFFICER JEAN-PIERRE,
Correction Officer,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
ORDER:
Joel Barcelona, a Florida prisoner, filed a pro se 42 U.S.C. § 1983 civil rights
complaint against three employees at Martin Correctional Institution. The District
Court dismissed Mr. Barcelona’s complaint for failure to state a claim.

Mr.

Barcelona filed a notice of appeal from the District Court’s order dismissing his
complaint, as well as a motion for leave to proceed in forma pauperis (“IFP”) on
appeal. The District Court denied his motion for leave to proceed IFP. On appeal,

Case: 20-11760

Date Filed: 08/28/2020

Page: 2 of 7

Mr. Barcelona has consented to paying the appellate filing fee. Therefore, the only
remaining issue is whether an appeal would be frivolous.

See 28 U.S.C.

§ 1915(e)(2)(B).
I.
Mr. Barcelona alleges in his amended complaint that on September 16,2019,
he and other inmates were ordered by Officer Rodriguez to return to their cells before
they were given a chance to have dinner. Mr. Barcelona and the other inmates
refused, stating that they would not go back to their cells until they had an
opportunity to eat. Following this exchange, Mr. Barcelona’s cellmate, Jonathon
Holmes, remained seated in front of their cell, while Mr. Barcelona was inside of it.
Officer Rodriguez ordered Mr. Holmes to enter the cell, and Holmes refused.
Officer Rodriguez repeated his order, and this time, Mr. Holmes complied.
Nonetheless, Officer Rodriguez sprayed a “deadly gas” into the cell. The gas hit the
wall toward Mr. Barcelona’s bed and got into Mr. Barcelona’s face, resulting in
shortness of breath, eye pain, and an inability to breathe that nearly caused Mr.
Barcelona to pass out. Mr. Barcelona screamed for a “medical emergency,” but was
ignored by Officer Jean-Pierre, who was also present.
Mr. Barcelona’s complaint alleges that Officer Rodriguez violated his Eighth
Amendment rights by using of excessive deadly force maliciously and sadistically
to cause harm. Mr. Barcelona also asserted that Captain Martin was made aware of
2

Case: 20-11760

Date Filed: 08/28/2020

Page: 3 of 7

the incident and shown a recording, but failed to take any action. Accordingly, Mr.
Barcelona asserts: (1) an excessive force claim against Officer Rodriguez; (2) a
deliberate-indifference

claim

against

Officer

Jean-Pierre;

and

(3)

a

supervisor-liability claim against Captain Martin.
A Magistrate Judge performed an initial screening of Mr. Barcelona’s
complaint, under 28 U.S.C. § 1915A, and entered a report and recommendation
(“R&R”), recommending that Mr. Barcelona’s § 1983 complaint be dismissed for
failure to state a claim. Specifically, the R&R determined that Mr. Barcelona’s
excessive force claim against Officer Rodriguez failed because (a) he did not provide
any facts to support his assertion that Officer Rodriguez had acted maliciously, and
(b) he failed to allege that Officer Rodriguez had acted with a culpable state of mind
toward him, as the alleged use of force had been directed at Mr. Barcelona’s
cellmate. The magistrate also held that Mr. Barcelona’s supervisor-liability claim
against Captain Martin failed because Barcelona did not allege that Captain Martin
personally participated in the conduct or that there was a causal connection between
Captain Martin’s actions and the alleged constitutional deprivation. Finally, the
magistrate recommended dismissal of Mr. Barcelona’s deliberate-indifference claim
against Officer Jean-Pierre because Barcelona did not show causation between
Officer Jean-Pierre’s indifference and his injuiy.

3

Case: 20-11760

Date Filed: 08/28/2020

Page: 4 of 7

Mr. Barcelona objected to the R&R, asserting that, after Officer Rodriguez
sprayed him with the gas, the officers left him in a poorly ventilated cell without
decontaminating him for more than one hour, nearly causing him to pass out. He
further responded that the officers demonstrated deliberate indifference to his
medical needs because they “did not believe [he] was sprayed directly” and they
“did not know that [he] was yelling in the cell for [a] medical emergency because he
was expose[d] with a deadly gas spray.” The District Court entered an order
overruling Mr. Barcelona’s objections, holding that Barcelona failed to allege an
excessive force claim because he conceded in his objections that the officers did not
know that he was calling for help. Thus, the District Court adopted the R&R and
dismissed Mr. Barcelona’s § 1983 complaint for failure to state a claim.
II.
“[A]n action is frivolous if it is without arguable merit either in law or fact.”
Naoier v. Preslicka. 314 F.3d 528, 531 (11th Cir. 2002) (quotation marks omitted).
We liberally construe pro se pleadings. Tannenbaum v. United States. 148 F.3d
1262, 1263 (11th Cir. 1998) (per curiam).
We “review de novo a District Court’s sua soonte dismissal for failure to state
a claim, pursuant to § 1915(e)(2), using the same standards that govern Federal Rule
of Civil Procedure 12(b)(6) dismissals.” Farese v. Scherer. 342F.3d 1223, 1230
(11th Cir. 2003). Allegations in a complaint are accepted as true and construed in
4

Case: 20-11760

Date Filed: 08/28/2020

Page: 5 of 7

the light most favorable to the plaintiff. Leib v. Hillsborough Ctv. Pub. Transp.
Comm’n. 558 F.3d 1301, 1305 (11th Cir. 2009). To avoid dismissal under Rule
12(b)(6), the plaintiff must allege sufficient facts to state a claim for relief that is
“plausible on its face.” Bell Atl, Coro, v. Twomblv. 550 U.S. 544, 570, 127 S. Ct.
1955, 1964-65 (2007). “[A] claim has facial plausibility when the plaintiff pleads
factual content that allows the court to. draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal. 556 U.S. 662,
678, 129 S. Ct. 1937, 1949 (2009).
The use of force by prison officials against convicted inmates is governed by
the Eighth Amendment’s proscription of cruel and unusual punishment. Campbell
v. Sikes. 169 F.3d 1353,1374 (11th Cir. 1999). A viable claim for excessive force
consists of both a subjective and objective component. Hudson v, McMillian. 503
U.S. 1, 7-8, 112 S. Ct. 995, 999-1000 (1992). Subjectively, a plaintiff must
establish that force was applied “maliciously and sadistically for the very purpose of
causing harm,” rather than “in a good faith effort to maintain or restore discipline.”
Id. at 6, 112 S. Ct at 998 (quotation omitted). To determine whether force was
applied maliciously and sadistically to cause harm, we consider: (1) the need for the
application of force, (2) the relationship between that need and the amount of force
used, (3) the extent of the prisoner’s injuries, (4) the threat reasonably perceived by

5

Case: 20-11760

Date Filed: 08/28/2020

Page: 6 of 7

the officials, and (5) efforts made to temper the severity of the force. Cockrell v.
Sparks. 510 F.3d 1307,1311 (11th Cir. 2007).
Mr. Barcelona has an issue of arguable merit as to whether he alleged
sufficient facts to plausibly state an excessive force claim. The District Court
dismissed the excessive force claim based on its conclusion that Mr. Barcelona failed
to allege any facts demonstrating that Officer Rodriguez acted with a sufficiently
culpable state of mind. However, Mr. Barcelona alleged that (1) Officer Rodriguez
administered the spray after Mr. Holmes already had complied with the order to
return to his cell; and (2) the officers left Mr. Barcelona in his cell after spraying him
without decontaminating him for over an hour, ignoring his pleas for a “medical
emergency.” Although Mr. Barcelona’s allegations can be interpreted to suggest
that Officer Rodriguez acted maliciously toward Mr. Holmes rather than
Mr. Barcelona, courts must, at the pleading stage, construe allegations in the light
most favorable to the plaintiff. See Twomblv. 550 U.S. at 570, 127 S. Ct. at 1964—
65. Construing the allegations in the light most favorable to Mr. Barcelona, it is at
least plausible that Officer Rodriguez acted maliciously toward both Mr. Barcelona
and Mr. Holmes by spraying into their shared cell. And while Mr. Barcelona said in
his objections to the R&R that Officer Rodriguez did not believe he was suffering a
medical emergency, this does not defeat his excessive force claim because he also
alleged that Officer Rodriguez failed to decontaminate his cell for one hour. See
6

Case: 20-11760

Date Filed: 08/28/2020

Page: 7 of 7

Dan lev v. Allen, 540 F.3d 1298, 1308 (11th Clr. 2008) (holding that “subjecting a
prisoner to special confinement that causes him to suffer increased effects of
environmental conditions—[tjhere . . . pepper spray lingering in the air and on
him—can constitute excessive force”), overruled in part on other grounds as
recognized bv Randall v. Scott, 610 F.3d 701 (11th.Cir. 2010).
III.
Therefore, Mr. Barcelona has an issue of arguable merit as to whether the facts
in his complaint, when liberally construed and viewed in the light most favorable to
him, alleged a plausible excessive force claim.

See Napier. 314F.3dat 531;

Tannenbaum, 148 F.3d at 1263. In light of the above, Mr. Barcelona's motion for
leave to proceed is GRANTED.

«¥ p /)vAj
UNITED SPATES CIRCUIT JUDGE

7

APPENDIX - C
5

USCA11 Case: 20-11760

Date Filed: 03/09/2021

Page: 1 of 7

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11760
Non-Argument Calendar
D.C. Docket No. 2:19-cv-14461-KMM

JOEL BARCELONA,
Plaintiff-Appellant,
versus
M. ESCOTTO RODRIGUEZ,
Correction Officer,
CAPT. MARTIN,
OFFICER JEAN-PIERRE,
Correction Officer,
Defendants-Appellees.

Appeal from the United States District Court
for the Southern District of Florida
(March 9, 2021)
Before JORDAN, BRASHER, and EDMONDSON, Circuit Judges.

USCA11 Case: 20-11760

Date Filed: 03/09/2021

Page: 2 of 7

PER CURIAM:

Plaintiff Joel Barcelona, a Florida prisoner proceeding pro se.1 appeals the
district court’s dismissal ~ pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii) -- of his 42
U.S.C. § 1983 civil action. In his amended complaint, Plaintiff alleged that
defendant prison officials — Captain Martin, Officer Rodriguez, and Officer JeanPierre — violated the Eighth Amendment. No reversible error has been shown; we
affirm.
Plaintiffs complaint arises from an incident that occurred on 16 September
2019, while Plaintiff was confined at the Martin Correctional Institution. At
Captain Martin’s instruction, Officer Rodriguez ordered all prisoners to return to
their cells for counting before the prisoners completed eating dinner. Plaintiff
returned to his cell. Plaintiffs cellmate (J.H.), however, sat in front of the cell and
refused to enter until he had eaten. Officer Rodriguez approached Plaintiffs cell
and again ordered J.H. to return to his cell.
Although J.H. complied with this second order, Officer Rodriguez “sprayed
a deadly gas” at J.H. -- when J.H. was inside the cell. The spray also hit the wall
1 We construe liberally pro se pleadings. Tannenbaum v. United States. 148 F.3d 1262, 1263
(11th Cir. 1998).
2

USCA11 Case: 20-11760

Date Filed: 03/09/2021

Page: 3 of 7

near Plaintiffs bed and hit Plaintiffs face. As a result, Plaintiff experienced
discomfort, including shortness of breath, eye pain, and a painful runny nose.
After being sprayed, J.H. was handcuffed and taken away.
Plaintiff says that Officer Jean-Pierre - who was in front of Plaintiff s cell
during the incident ™ ignored Plaintiffs calls for a “medical emergency.” Plaintiff
s also says that Captain Martin later viewed the surveillance footage of the incident.
The magistrate judge issued a report and recommendation (“R&R”) in which
she recommended that Plaintiffs complaint be dismissed — pursuant to 28 U.S.C.
§ 1915(e)(2)(B)(ii) ~ for failure to state a claim. After considering Plaintiffs
objections to the R&R, the district court adopted the magistrate judge’s
recommendation and dismissed with prejudice Plaintiffs complaint.2
We review de novo a district court’s sua sponte dismissal under section
1915(e)(2)(B)(ii) for failure to state a claim. Evans v. Ga. Reg’l Hosp.. 850 F.3d
1248, 1253 (11th Cir. 2017). In reviewing a dismissal under section

The district court acted within its discretion in declining to consider factual allegations and
arguments Plaintiff presented for the first time in his objections to the R&R. See Williams v.
McNeil. 557 F.3d 1287, 1292 (11th Cir. 2009). The district court also determined that further
amendment of the complaint would be futile because Plaintiffs new factual allegations still
failed to state a claim under the Eighth Amendment.
On appeal, Plaintiff raises no challenge to the district court’s refusal to consider facts not alleged
in his amended complaint or the district court’s determination that another amendment would be
futile. Accordingly, we will not consider those new factual allegations and arguments in
deciding this appeal.
3

USCA11 Case: 20-11760

Date Filed: 03/09/2021

Page: 5 of 7

sadistically for the very purpose of causing harm” instead of “in a good faith effort
to maintain or restore discipline.” Id. at 1374.
The district court committed no error in dismissing Plaintiffs claim for
excessive force under the Eighth Amendment. Plaintiff alleged no facts supporting
his cpnclusory allegation that Officer Rodriguez acted maliciously and sadistically
to cause Plaintiff harm. Plaintiff never alleged — nor can we infer reasonably —
that Officer Rodriguez intended to spray or to otherwise harm Plaintiff. That some
of the spray aimed at J.H. hit the wall near Plaintiffs bed and injured Plaintiff is
insufficient to establish that Officer Rodriguez had the requisite intent to cause
harm to Plaintiff. Cf. Lumlev v. City of Dade City. 327 F.3d 1186, 1196 (11th Cir.
2003) (explaining that a “showing of mere negligence” is insufficient to establish
an unconstitutional use of excessive force). Plaintiff has thus stated no plausible
claim for excessive force against Officer Rodriguez.
To state a claim for deliberate indifference to a serious medical need, a
plaintiff must allege “(1) a serious medical need; (2) the defendants’ deliberate
indifference to that need; and (3) causation between that indifference and the
plaintiffs injury.” Danlev v. Allen. 540 F.3d 1298, 1310 (11th Cir. 2008). To
satisfy the intent element, a plaintiff must allege that the prison official had

■ 5

USCA11 Case: 20-11760

Date Filed: 03/09/2021

Page: 6 of 7

“subjective knowledge of a risk of serious harm” and disregarded that risk “by
conduct that is more than [gross] negligence.” Id. at 1312 (alteration in original).
The district court dismissed properly Plaintiffs claim for deliberate
indifference. We have said that exposure to pepper spray without adequate
j decontamination can constitutes serious medical need. See Danlev. 540 F.3d at
1310-11. Even if we accept that Plaintiff alleged sufficiently a serious medical
need, he has alleged no facts that would support an inference that Officers
Rodriguez or Jean-Pierre acted with deliberate indifference to that need. On
appeal, Plaintiff says expressly that Officers Rodriguez and Jean-Pierre did not
know that Plaintiff had been sprayed directly and did not know that Plaintiff was
yelling for a medical emergency because Plaintiff had been exposed to the “deadly
gas.” Absent allegations that Officers Rodriguez and Jean-Pierre had subjective
knowledge of a risk of serious harm to Plaintiff, Plaintiff can state no plausible
claim for deliberate indifference.
Because Plaintiff has failed to state a claim for violation of the Eighth
Amendment against Officers Rodriguez and Jean-Pierre, he can state no claim for
supervisory liability against Captain Martin. See Beshers v. Harrison. 495 F.3d
1260, 1264 n.7 (11th Cir. 2007) (declining to address a claim for supervisory
liability when plaintiff had proved no underlying constitutional violation).
6

USCA11 Case: 20-11760

Date Filed: 03/09/2021

AFFIRMED.

7

Page: 7 of 7

